No. 19-899

3Jn tbt ~upreme cteourt of tbe llntteb ~tateg
SHANIZ WEST,

Petitioner,
v.
DOUG WINFIELD, ET AL.,

Respondents.

CERTIFICATE OF SERVICE
I, Andrew J. Pincus, counsel for amici curiae and a member of the Bar of this
Court, certify that on this 20th day of February, 2020, I caused three copies of this
Brief of Legal Scholars as Amici Curiae in Support of Petitioner to be served by
overnight mail and electronic means on the following:
Robert James McNamara
Institute for Justice
901 N Glebe Road
Suite 900
Arlington, VA 22203
rmcnamara@ij.org
703-682-9320

Richard A. Simpson
Wiley Rein, LLP
1776 K Street, NW
Washington, DC 20006
rsimpson@wileyrein.com
202-719-7314

I further certify that all parties required to be served have been served.

~IJ?c·~//k-s

/ Andrew J . P~us

